20-6286

IN THE
SUPREME COURT OF THE UNITED STATES

Ruben G. Aragon - PETITIONER

VS

THE STATE OF COLORADO
RESPONDENT(S)

PROOF OF SERVICE

I Ruben G. Aragon, do swear or declare that on this 20th day of January
2021, as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR REHEARING FOR WRIT OF CERTIORARI on the party's counsel of
record as required, by depositing an envelope containing the above documents
in the U.S. Mail properly addressed by logging it in the Arkansas Valley
Correctional Legal Log System for deposit in the U.S.Mail.
The Names and Addresses of those served are as follows:
L. Andrew Cooper
Office of the Attorney General
1300 Broadway St. 10th Floor
Denver Colorado 80203
I declare under penalty of perjury that the foregoing is true.
Executed on this 20th day of January, 2021.
Ruben G

igon

